DOCKET NO.
UNITED STATES SUPREME COURT
2020 OCTOBER TERM

YULIAN MANUEL VILLAVICENCIO,
PETITIONER
v.
UNITED STATES OF AMERICA,
RESPONDENT
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT

PROOF OF SERVICE
The undersigned certifies that the Petition for Writ of Certiorari and Motion for
Leave to Proceed in Forma Pauperis in this matter were served upon the United
States of America by depositing it in the U.S. Mail first class postage paid and
addressed to the Solicitor General of the United States, Room 5614, Department of
Justice, 950 Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001.
This the 22ND day of OCTOBER, 2020.
/s/ Aaron E Michel
Aaron E. Michel
Attorney for Defendant-Petitioner
1000 N. Maple St., Marysville, OH 43040
704-451-8351
mail@aaronmichel.com

1

